      DEPARTMENT OF HEALTH & HUMAN SERVICES                            Office of Inspector General


                                                                       Washington, D.C. 20201




October 26, 2010

TO:           Donald M. Berwick, M.D.
              Administrator
              Centers for Medicare & Medicaid Services


FROM:         /George M. Reeb/
              Acting Deputy Inspector General for Audit Services


SUBJECT:      Review of Payments Exceeding Charges for Outpatient Services Processed by
              Wisconsin Physicians Service Insurance Corporation for Calendar Years 2004
              Through 2007 (A-07-10-04167)


Attached, for your information, is an advance copy of our final report on payments exceeding
charges for outpatient services processed by Wisconsin Physicians Service Insurance
Corporation (WPS) for calendar years 2004 through 2007. We will issue this report to WPS
within 5 business days.

If you have any questions or comments about this report, please do not hesitate to call me, or
your staff may contact Robert A. Vito, Acting Assistant Inspector General for the Centers for
Medicare & Medicaid Audits, at (410) 786-7104 or through email at Robert.Vito@oig.hhs.gov
or Patrick J. Cogley, Regional Inspector General for Audit Services, Region VII, at
(816) 426-3591 or through email at Patrick.Cogley@oig.hhs.gov. Please refer to report number
A-07-10-04167.


Attachment
     DEPARTMENT OF HEALTH & HUMAN SERVICES                                Office of Inspector General

                                                                          Office of Audit Services, Region VII
                                                                          601 East 12th Street, Room 0429
                                                                          Kansas City, MO 64106



October 28, 2010

Report Number: A-07-10-04167

Ms. Jared Adair
Senior Vice President
Medicare Operations, Medicare Division
Wisconsin Physicians Service Insurance Corporation
1717 West Broadway
Madison, WI 53713

Dear Ms. Adair:

Enclosed is the U.S. Department of Health & Human Services (HHS), Office of Inspector
General (OIG), final report entitled Review of Payments Exceeding Charges for Outpatient
Services Processed by Wisconsin Physicians Service Insurance Corporation for Calendar Years
2004 Through 2007. We will forward a copy of this report to the HHS action official noted on
the following page for review and any action deemed necessary.

The HHS action official will make final determination as to actions taken on all matters reported.
We request that you respond to this official within 30 days from the date of this letter. Your
response should present any comments or additional information that you believe may have a
bearing on the final determination.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me at
(816) 426-3591, or contact Debra Keasling, Audit Manager, at (816) 426-3213 or through email
at Debra.Keasling.@oig.hhs.gov. Please refer to report number A-07-10-04167 in all
correspondence.

                                             Sincerely,



                                             /Patrick J. Cogley/
                                             Regional Inspector General
                                               for Audit Services


Enclosure
Page 2 – Ms. Jared Adair


Direct Reply to HHS Action Official:

Ms. Nanette Foster Reilly
Consortium Administrator
Consortium for Financial Management & Fee for Service Operations
Centers for Medicare & Medicaid Services
601 East 12th Street, Room 235
Kansas City, MO 64106
  Department of Health & Human Services
             OFFICE OF
        INSPECTOR GENERAL




           REVIEW OF
PAYMENTS EXCEEDING CHARGES FOR
OUTPATIENT SERVICES PROCESSED BY
  WISCONSIN PHYSICIANS SERVICE
    INSURANCE CORPORATION
      FOR CALENDAR YEARS
       2004 THROUGH 2007



                        Daniel R. Levinson
                         Inspector General

                          October 2010
                          A-07-10-04167
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health & Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                  EXECUTIVE SUMMARY

BACKGROUND

Pursuant to Title XVIII of the Social Security Act, the Medicare program provides health
insurance for people aged 65 and over and those who are disabled or have permanent kidney
disease. The Centers for Medicare & Medicaid Services (CMS), which administers the program,
contracts with Medicare contractors to process and pay Medicare claims submitted by hospital
outpatient departments. The Medicare contractors use the Fiscal Intermediary Standard System
and CMS’s Common Working File (CWF) to process claims. The CWF can detect certain
improper payments during prepayment validation.

Medicare guidance requires hospitals to submit accurate claims for hospital outpatient services.
Hospitals should use the appropriate Healthcare Common Procedure Coding System (HCPCS)
codes and report units of service as the number of times that a service or procedure was
performed. In addition, hospitals are required to charge Medicare and other payers, such as
private insurance companies, uniformly. However, Medicare uses the hospital outpatient
prospective payment system to pay hospitals. In this method of reimbursement, the Medicare
payment is not based on the amount that the hospital charges. Consequently, the billed charges
(the prices that a hospital sets for its services) do not affect the current Medicare payment
amounts. Billed charges generally exceed the amount that Medicare pays the hospital.
Therefore, a Medicare payment that significantly exceeds the billed charges is at high risk of
overpayment.

During our audit period (calendar years (CY) 2004 through 2007), Wisconsin Physicians Service
Insurance Corporation (WPS) was a Medicare contractor in 22 States. WPS processed
approximately 59 million outpatient claims during our audit period, 6,034 of which resulted in
payments that (1) exceeded charges by at least $500 and (2) were less than $50,000. From the
hospitals that submitted these 6,034 claims, we identified all hospitals that had at least 1 claim
for which the payment exceeded charges by at least $10,000, and we reviewed all claims for
those hospitals. As a result, we reviewed 3,409 payments.

OBJECTIVE

Our objective was to determine whether certain Medicare payments in excess of charges that
WPS made to hospitals for hospital outpatient services were correct.

SUMMARY OF FINDINGS

Of the 3,409 selected Medicare payments that exceeded charges that WPS made for outpatient
services for CYs 2004 through 2007, 1,996 were correct. The 1,413 remaining payments were
incorrect and included overpayments totaling $9,164,416, which the hospitals had not refunded
by the beginning of our audit.




                                                i
Of the 1,413 incorrect Medicare payments:

   •    Hospitals reported excessive units of service on 611 claims, resulting in overpayments
        totaling $6,514,439.

   •    Hospitals used HCPCS codes that did not reflect the procedures performed for 578
        claims, resulting in overpayments totaling $1,898,976.

   •    Hospitals reported a combination of incorrect units of service claimed and incorrect
        HCPCS codes for 191 claims, resulting in overpayments totaling $687,765.

   •    Hospitals billed for unallowable services on 32 claims, resulting in overpayments totaling
        $62,517.

   •    A hospital could not provide the supporting documentation for one claim, resulting in an
        overpayment of $719.

The hospitals attributed the incorrect payments to clerical errors or to billing systems that could
not prevent or detect the incorrect billing of units of service and other types of billing errors.
WPS made these incorrect payments because neither the Fiscal Intermediary Standard System
nor the CWF had sufficient edits in place to detect and prevent the overpayments.

RECOMMENDATIONS

We recommend that WPS:

    •   recover the $9,164,416 in identified overpayments and

    •   use the results of this audit in its hospital education activities.

WISCONSIN PHYSICIANS SERVICE INSURANCE CORPORATION COMMENTS

In written comments on our draft report, WPS described actions that it had taken or planned to
take to address our recommendations. WPS noted that it had adjusted the claims that we
identified as overpayments and had recovered $10,675,163 (including $4,920 in interest).
WPS’s comments are included in their entirety as the Appendix.




                                                   ii
                                                   TABLE OF CONTENTS
                                                                                                                                       Page

INTRODUCTION ...................................................................................................................... 1

      BACKGROUND ................................................................................................................. 1
        Medicare Contractors .................................................................................... 1
        Claims for Outpatient Services ...................................................................................... 1
        Wisconsin Physicians Service Insurance Corporation .................................................... 1

      OBJECTIVE, SCOPE, AND METHODOLOGY ................................................................ 2
        Objective ......................................................................................................................... 2
        Scope......................................................................................................... 2
        Methodology .................................................................................................................. 2

FINDINGS AND RECOMMENDATIONS ............................................................................ 3

      FEDERAL REQUIREMENTS .................................................................................. 4

      INCORRECT MEDICARE PAYMENTS .......................................................................... 4
         Incorrect Number of Units of Service ............................................................................ 4
         Incorrect Healthcare Common Procedure Coding System Codes ..................................4
         Combination of Incorrect Units of Service and Incorrect Healthcare Common
            Procedure Coding System Codes .............................................................................. 5
         Services Not Allowable for Medicare Reimbursement .................................................. 5
         Unsupported Claims........................................................................................................ 5

      CAUSES OF INCORRECT MEDICARE PAYMENTS ..................................................... 6

      RECOMMENDATIONS ..................................................................................................... 6

      WISCONSIN PHYSICIANS SERVICE INSURANCE
        CORPORATION COMMENTS .................................................................................... 6

APPENDIX

      WISCONSIN PHYSICIANS SERVICE INSURANCE CORPORATION COMMENTS




                                                                     iii
                                              INTRODUCTION

BACKGROUND

Pursuant to Title XVIII of the Social Security Act, the Medicare program provides health
insurance for people aged 65 and over and those who are disabled or have permanent kidney
disease. The Centers for Medicare & Medicaid Services (CMS) administers the program.

Medicare Contractors

CMS contracts with Medicare contractors to, among other things, process and pay Medicare
claims submitted by hospital outpatient departments. 1 The Medicare contractors’
responsibilities include determining reimbursement amounts, conducting reviews and audits,
and safeguarding against fraud and abuse. Federal guidance provides that Medicare
contractors must maintain adequate internal controls over automatic data processing systems
to prevent increased program costs and erroneous or delayed payments. To process hospitals’
outpatient claims, the Medicare contractors use the Fiscal Intermediary Standard System and
CMS’s Common Working File (CWF). The CWF can detect certain improper payments
during prepayment validation.

Claims for Outpatient Services

Medicare guidance requires hospitals to submit accurate claims for hospital outpatient
services. Hospitals should use the appropriate Healthcare Common Procedure Coding System
(HCPCS) codes and report units of service as the number of times that a service or procedure
was performed. 2 In addition, hospitals are required to charge Medicare and other payers, such
as private insurance companies, uniformly. However, Medicare uses the hospital outpatient
prospective payment system to pay hospitals. In this method of reimbursement, the Medicare
payment is not based on the amount that the hospital charges. Consequently, the billed
charges (the prices that a hospital sets for its services) do not affect the current Medicare
payment amounts. Billed charges generally exceed the amount that Medicare pays the
hospital. Therefore, a Medicare payment that significantly exceeds the billed charges is at
high risk of overpayment.

Wisconsin Physicians Service Insurance Corporation

During our audit period (calendar years (CY) 2004 through 2007), Wisconsin Physicians
Service Insurance Corporation (WPS) was a Medicare contractor in 22 States: Alabama,
Alaska, Arkansas, Florida, Georgia, Idaho, Illinois, Indiana, Iowa, Kansas, Kentucky,

1
  Section 911 of the Medicare Prescription Drug, Improvement, and Modernization Act of 2003,
P.L. No. 108-173, required CMS to transfer the functions of fiscal intermediaries and carriers to Medicare
administrative contractors (MAC) between October 2005 and October 2011. Most, but not all, of the MACs are
fully operational; for jurisdictions where the MACs are not fully operational, the fiscal intermediaries and
carriers continue to process claims. For purposes of this report, the term “Medicare contractor” means the fiscal
intermediary, carrier, or MAC, whichever is applicable.
2
    HCPCS codes are used throughout the health care industry to standardize coding for medical procedures.


                                                          1
Missouri, Nebraska, New Hampshire, North Carolina, Ohio, Oregon, South Carolina,
Tennessee, Virginia, Washington, and West Virginia. 3

WPS processed approximately 59 million outpatient claims during our audit period.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether certain Medicare payments in excess of charges that
WPS made to hospitals for outpatient services were correct.

Scope

Of the 59 million outpatient claims that WPS processed during CYs 2004 through 2007, 6,034
claims resulted in payments that (1) exceeded charges by at least $500 and (2) were less than
$50,000. From the hospitals that submitted these 6,034 claims, we identified all hospitals that
had at least 1 claim for which the payment exceeded charges by at least $10,000, and we
reviewed all claims for those hospitals. As a result, we reviewed 3,409 payments. 4

We limited our review of WPS’s and the hospitals’ internal controls to those that were
applicable to the 3,409 selected Medicare payments because our objective did not require an
understanding of all internal controls over the submission and processing of claims. Our
review allowed us to establish reasonable assurance of the authenticity and accuracy of the
data obtained from the National Claims History file, but we did not assess the completeness of
the file.

Our fieldwork included contacting WPS, located in Madison, Wisconsin, and Omaha,
Nebraska, and contacting the 127 hospitals that received the selected Medicare payments.

Methodology

To accomplish our objective, we did the following:

    •    We reviewed applicable Federal laws, regulations, and guidance.

    •    We used CMS’s National Claims History file to identify outpatient claims for which
         the total payment was greater than the total charge by at least $10,000 but not more




3
 Prior to our audit period, hospitals processed Medicare outpatient claims through separate fiscal intermediaries.
WPS was the Medicare contractor for these hospitals during our audit period, and WPS is ultimately responsible
for collecting the overpayments and resolving any issues as a result of this audit.
4
 We excluded Medicare payments to two hospitals (Swedish Medical Centers) that we reviewed in other audits
(A-09-09-00102 and A-09-09-00103).


                                                          2
        than $50,000. 5 Further, for the hospitals with at least one claim meeting the above
        criteria, we reviewed all Medicare outpatient claims for which the total payment
        exceeded the total charge by at least $500.

    •   We contacted the 127 hospitals that received the selected Medicare payments to
        determine whether the information on the claims was correct and, if not, why the
        claims were incorrect.

    •   We obtained documentation from the hospitals confirming all incorrect claims
        identified.

    •   We coordinated the calculation of overpayments and discussed the results of our
        review with WPS.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable
basis for our findings and conclusions based on our audit objective.

                           FINDINGS AND RECOMMENDATIONS

Of the 3,409 selected Medicare payments that exceeded charges that WPS made for outpatient
services for CYs 2004 through 2007, 1,996 were correct. The 1,413 remaining payments
were incorrect and included overpayments totaling $9,164,416, which the hospitals had not
refunded by the beginning of our audit.

Of the 1,413 incorrect Medicare payments:

    •   Hospitals reported excessive units of service on 611 claims, resulting in overpayments
        totaling $6,514,439.

    •   Hospitals used HCPCS codes that did not reflect the procedures performed for 578
        claims, resulting in overpayments totaling $1,898,976.

    •   Hospitals reported a combination of incorrect units of service claimed and incorrect
        HCPCS codes for 191 claims, resulting in overpayments totaling $687,765.

    •   Hospitals billed for unallowable services on 32 claims, resulting in overpayments
        totaling $62,517.

    •   A hospital could not provide the supporting documentation for one claim, resulting in
        an overpayment of $719.

5
 We reviewed some payments of $50,000 and greater in a separate audit (A-01-05-00514) and plan to review
additional payments of $50,000 or greater in future audits.


                                                      3
The hospitals attributed the incorrect payments to clerical errors or to billing systems that
could not prevent or detect the incorrect billing of units of service and other types of billing
errors. WPS made these incorrect payments because neither the Fiscal Intermediary Standard
System nor the CWF had sufficient edits in place to detect and prevent the overpayments.

FEDERAL REQUIREMENTS

Section 9343(g) of the Omnibus Budget Reconciliation Act of 1986, P.L. No. 99-509,
mandated that the Medicare contractors require hospitals to report claims for hospital
outpatient services using the HCPCS. Section 1833(e) of the Social Security Act states: “[n]o
payment shall be made to any provider of services … unless there has been furnished such
information as may be necessary in order to determine the amounts due such provider … for
the period with respect to which the amounts are being paid ….” CMS’s Medicare Claims
Processing Manual, Pub. No. 100-04, chapter 4, section 20.4, states: “The definition of
service units … is the number of times the service or procedure being reported was
performed.” In addition, chapter 1, section 80.3.2.2, of this manual states: “In order to be
processed correctly and promptly, a bill must be completed accurately.”

INCORRECT MEDICARE PAYMENTS

Incorrect Number of Units of Service

Hospitals reported excessive units of service on 611 claims, resulting in overpayments
totaling $6,514,439. The following examples illustrate the excessive units of service:

       •   One hospital billed 48 claims with incorrect service units. Rather than billing between
           236 and 380 service units (the correct range for these claims), the hospital billed
           between 2,360 and 3,800 service units. These errors occurred because the hospital’s
           chargemaster 6 was incorrect. As a result of these errors, WPS paid the hospital
           $1,317,544 when it should have paid $176,457, an overpayment of $1,141,087.

       •   Another hospital billed 26 claims with incorrect service units. Rather than billing for
           1 service unit, the hospital billed between 11 and 18 service units. These errors
           occurred because the hospital’s computer software was programmed incorrectly. As a
           result of these errors, WPS paid the hospital $131,252 when it should have paid
           $19,580, an overpayment of $111,672.

Incorrect Healthcare Common Procedure Coding System Codes

Hospitals used HCPCS codes that did not reflect the procedures performed on 578 claims,
resulting in overpayments totaling $1,898,976. For example, because of human error, a
hospital billed two claims with an HCPCS code for a spinal cord procedure involving a skin
incision rather than using the correct HCPCS code involving a needle puncture of the skin, the
procedure actually performed. As a result of these errors, WPS paid the hospital $40,156
when it should have paid $8,543, an overpayment of $31,613.
6
    A hospital’s chargemaster contains data on every chargeable item or procedure that the hospital offers.


                                                            4
Combination of Incorrect Units of Service and Incorrect
Healthcare Common Procedure Coding System Codes

Hospitals reported both excessive units of service and incorrect HCPCS codes on 191 claims.
These errors resulted in overpayments totaling $687,765. The following examples illustrate
the combination of incorrect units of service claimed and incorrect HCPCS codes used:

   •   One hospital billed for a procedure with 288 units of service. However, both the
       procedure billed and the units of service were incorrect. The hospital should have
       billed using a different procedure code with nine units of service. This type of error
       occurred on a total of six claims that this hospital submitted. As a result, WPS paid
       the hospital $100,035 when it should have paid $16,246, an overpayment of $83,789.

   •   Another hospital incorrectly billed five units of service for an infusion procedure when
       it should have billed one unit of service. For the same claim, the hospital also used an
       incorrect HCPCS code for a chemo infusion procedure. As a result of these errors,
       WPS paid the hospital $14,872 when it should have paid $2,109, an overpayment of
       $12,763.

Services Not Allowable for Medicare Reimbursement

Hospitals incorrectly billed Medicare for 32 claims for which the services rendered were not
allowable for Medicare reimbursement, resulting in overpayments totaling $62,517. The
following examples illustrate the unallowable services:

   •   One hospital posted a filed claim to the wrong patient account because of a clerical
       error, so the hospital was paid twice for the same service. As a result of this error,
       WPS paid the hospital $19,604 for the incorrect patient when it should have paid $0,
       an overpayment of $19,604.

   •   Another hospital billed Medicare for 22 procedures that were unrelated to outpatient
       services. Specifically, the hospital billed Medicare outpatient services for dental
       procedures that are not covered by Medicare. For example, the hospital billed for the
       repair of a tooth socket, which is not a covered procedure according to the Medicare
       Benefit Policy Manual, Pub. No. 100-02, chapter 15, section 150. As a result of these
       errors, WPS paid the hospital $27,329 when it should have paid $0, an overpayment of
       $27,329.

Unsupported Claims

One hospital billed Medicare for one claim for which the hospital could not provide
supporting documentation. The hospital agreed to cancel the claim and refund the $719
overpayment that it received.




                                                5
CAUSES OF INCORRECT MEDICARE PAYMENTS

The hospitals attributed the incorrect payments to clerical errors or to billing systems that
could not prevent or detect the incorrect billing of units of service and other types of billing
errors. WPS made these incorrect payments because neither the Fiscal Intermediary Standard
System nor the CWF had sufficient edits in place to detect and prevent the overpayments. In
effect, CMS relied on hospitals to notify the Medicare contractors of excessive payments and
on beneficiaries to review their Medicare Summary Notice and disclose any overpayments. 7

On January 3, 2006, CMS required Medicare contractors to implement a Fiscal Intermediary
Standard System edit to suspend potentially excessive Medicare payments for prepayment
review. As implemented, this edit suspends payments exceeding established thresholds and
requires contractors to determine the legitimacy of the claims. However, this edit did not
detect the errors that we found because the edit considers only the amount of the payment and
does not flag payments that exceed charges.

RECOMMENDATIONS

We recommend that WPS:

     •   recover the $9,164,416 in identified overpayments and

     •   use the results of this audit in its hospital education activities.

WISCONSIN PHYSICIANS SERVICE INSURANCE CORPORATION COMMENTS

In written comments on our draft report, WPS described actions that it had taken or planned to
take to address our recommendations. WPS noted that it had adjusted the claims that we
identified as overpayments and had recovered $10,675,163 (including $4,920 in interest).
WPS’s comments are included in their entirety as the Appendix.




7
 The Medicare contractor sends a Medicare Summary Notice to the beneficiary after the hospital files a claim for
services. The notice explains the services billed, the approved amount, the Medicare payment, and the amount
due from the beneficiary.


                                                         6
APPENDIX
                                                                                                                             Page 1 of2


                      APPENDIX: WISCONSIN PHYSICIANS SERVICE 

                        INSURANCE CORPORATION COMMENTS 





               CAlsJ
                                                                                                           Medicare
September 1<1, 2010


Mr. PatrickJ. Cogley
Regional Inspector General Audit Services
Office of Audit Services, Region VII
601 EAS! IZ"'Strect
Kansas City, MO 64106

RE: Offkc of Inspector Gcncrul (OIG) Drnfl Rcporl - A_07_1 0-04167

Dear Mr. Cogley,

This leller is in I"CSPOllse to the OIG draft report titled Review <,[Payments Hxccedil1g Clwrgesjor Oll/pal/elll
Services Proce.ssed by Wiscollsill Physicialls Sen'icc "lSI/TWiCe CorporaliollJor Ca/elldar Yeaf$ 2004 Through
2007.

OIG selected for review 3,409 Me<licarc payments by WPS that exceeded charges on outpatient services for
calend!lr years 2004 through 2007, ofwhich 1,996 were con:ect. The 1,413 rcmainil18 payments wert: incorrect
wilh overpayments totaling. $9,164,416, which the hospil3Js had not refunded by the beginning of the audit.

As noted in the O[G report hospitals aflribu(ed l/ie im:orrecl paymeJltlo clerical erl'Ors or (a billil/g syslems tlml
could I/ot prew!I1l 01' delec( Ihe incorrect billing o/lIl/ilS or seJvices and olher Iype.~ a/billing eI"l'OI'$. WI'S lIIade
Illcre incorrect paymellis becall~·e lIei(IIcl' tile Fiscallllfermedimy Standard System liar lite CWF had suffiCient
edits ill place 10 deteel mId prevclI/ tile Ol'CrpaYlllellls.

OIG RC(;omnu:ndations to WPS:
   • 	 recover Ihe $9,164,416 ill idelllifled oV/!rpaymeJlts and
   • 	 lise Ille resulls o//ltis {I/I(/il ill ils Ilospi/al educatiol/ activities

WPS's Response to theO[G Recommendations:
  • 	 WPS has adjusted the DIG identified claims and 1"C(;0vered $10,675,162.52 (including $4,919.56 in
      interest) relating to the identilkd overpayments. The DIG identified overpayment and the aclual
      TC(;ovcred nmount diffct lIue to various reasons, such as missing providers, undelp3ymcnt claim handling
      and the actual overpayment amounts.
  • 	 Currently, WPS's Part A Provider Outreach & Ellucotion staff educates hospital pmviders on the correct
      reporting of ICD-9-CM diagnosis/procedure codes and CPTIIICPCS codes. Wc communicate thc critical
      billing clements that must be rcported correctly in order for the claim to process and pay accurately. III
      alldition, we educate on the correct repOrting of units for drugs and hours of observation. We stress the
      importance of using the HereS long descriptor to get the eom:ct dosage in order to correctly calculate
      thc units, and we provide examples on how 10 calculate units when billing drugs and hours of observation.
      As an additionaJnote, we advise the provider that reporting llilits aC(;uratcly ensures correct payment, nnd
      incorrect reporting orunits may result in significanlunderpayments or Overpayments. In the futuTe,
      WPS's Part A Provider Outreach & Education slaffwill include specific education on the itcms noted in
      the DIG report when conducting applicahle educational e~llls _ such as Outpatient IIo.~pital seminars.
      All educational module containing the specific items found by the OlG is currently in lIevelopment and
      will be utilized upon completion with applicab[c events.

                                  W1s<XlIl$ln Physlclans $ervlco Insvr~ C<>-pQfaliQn servfng 35 a CMS Modlcaro Conlfattoo"
WPS
 ....."L"r........"
                             e
                      .."NO.. 

                                  P.O.1lolC 1787. MaIIbon, WI 53701 • Phonc608-221·4111
                                                                                                              Page 2 of2




If you have IIny questions or need   ~dditional   information, plcase contact Mark OcFoil at 402-151 -6915.




Janet Kyle
Vice President Progranl Management

cc: 	   Jolm Phelps, eMS
        Usn Goschcn, eMS
        Debra Kt'3sling, DIG
        (.11nnC1\ Cook, DIG
